<html>
<title> - [H.A.S.C. No. 112-151]AFGHAN NATIONAL SECURITY FORCES: AFGHAN CORRUPTION AND THE DEVELOPMENT OF AN EFFECTIVE FIGHTING FORCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-151]

 
                    AFGHAN NATIONAL SECURITY FORCES:
                       AFGHAN CORRUPTION AND THE
                      DEVELOPMENT OF AN EFFECTIVE
                             FIGHTING FORCE

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             AUGUST 2, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
75-635                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  MARK S. CRITZ, Pennsylvania
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
            Christopher J. Bright, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                     Arthur Milikh, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, August 2, 2012, Afghan National Security Forces: Afghan 
  Corruption and the Development of an Effective Fighting Force..     1

Appendix:

Thursday, August 2, 2012.........................................    25
                              ----------                              

                        THURSDAY, AUGUST 2, 2012
AFGHAN NATIONAL SECURITY FORCES: AFGHAN CORRUPTION AND THE DEVELOPMENT 
                     OF AN EFFECTIVE FIGHTING FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Dubik, LTG James M., USA (Ret.), Senior Fellow, Institute for the 
  Study of War...................................................     2
Felbab-Brown, Vanda, Ph.D., Fellow, Foreign Policy Studies, 
  Brookings Institution..........................................     4
Katzman, Kenneth, Ph.D., Specialist in Middle Eastern Affairs, 
  Congressional Research Service.................................     6

                                APPENDIX

Prepared Statements:

    Dubik, LTG James M...........................................    30
    Felbab-Brown, Vanda..........................................    43
    Katzman, Kenneth.............................................    61
    Wittman, Hon. Rob............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

AFGHAN NATIONAL SECURITY FORCES: AFGHAN CORRUPTION AND THE DEVELOPMENT 
                     OF AN EFFECTIVE FIGHTING FORCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Thursday, August 2, 2012.
    The subcommittee met, pursuant to call, at 3:05 p.m. in 
room 2118, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. Ladies and gentleman, thank you all so much.
    We will call to order the Subcommittee on Oversight and 
Investigations for a hearing on Afghan National Security 
Forces, specifically looking at Afghan corruption and the 
development of an effective fighting force. I want to welcome 
folks today as our subcommittee convenes the fifth and final 
hearing in our series related to the Afghan National Security 
Forces.
    This afternoon we have before us a panel of experts to 
provide testimony about how corruption in Afghanistan might 
impede the development of that nation's security forces.
    Corruption could prevent army and police units from 
successfully assuming the responsibility for securing 
Afghanistan from internal and external threats after 2014. 
Corruption also potentially reduces the operational 
effectiveness of security forces and jeopardizes their 
legitimacy with their population.
    In order for the United States to achieve its strategic 
goal of denying terrorists safe haven in Afghanistan, it is 
essential that Afghan forces be capable of maintaining security 
and stability after transition is complete in 2014.
    Our purpose today is not to undertake a comprehensive 
assessment of corruption in the region, but instead to narrowly 
focus on how corruption affects the development of an effective 
Afghan army and police.
    Our panel today includes retired Lieutenant General James 
M. Dubik, Senior Fellow at the Institute for the Study of War; 
Dr. Vanda Felbab-Brown, a Foreign Policy Study Fellow at the 
Brookings Institution; and Dr. Kenneth Katzman, Specialist in 
Middle Eastern Affairs at the Congressional Research Service.
    Thank you for your participation today. We appreciate you 
taking your time and we look forward to your testimony.
    I note that all members have received your full written 
testimony. It will also be entered into the record as 
submitted. Therefore, this afternoon I ask that in the interest 
of time that you summarize your comments and highlight the 
significant points to allow members greater time to pose 
questions and ask for additional information. I will make sure 
that I sound the gavel at 5 minutes to try to keep you all as 
closely as we can to 5 minutes so that panel members have a 
chance to ask questions.
    This hearing marks the conclusion of a 7-week effort 
overseeing the development of the Afghan National Security 
Forces and the timetable to withdraw U.S. combat troops and 
cede security responsibility to Afghan units.
    The subcommittee has also held five hearings and received 
one classified briefing on the topic. In addition to our three 
panelists today, we have heard from sixteen other witnesses. 
Among other topics, these specialists have assessed the 
President's declared strategy and drawdown schedule and the 
method by which the United States and its allies train Afghan 
forces and measure the results.
    The subcommittee has also taken testimony from historians 
who reflected upon applicable lessons from earlier cases in 
which indigenous forces assumed security responsibility from 
withdrawing allies.
    Like the remarks we will hear today, the briefing 
statements and testimony have informed subcommittee members 
about the situation in Afghanistan, and they equip us to 
consider how the U.S. should proceed.
    With that, Mr. Cooper, I will turn it to you for any 
opening statement you may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 29.]
    Mr. Cooper. Thank you, Mr. Chairman. I have no opening 
statement.
    Mr. Wittman. Thank you.
    We will go to our witnesses. We will go first to Lieutenant 
General Dubik.

  STATEMENT OF LTG JAMES M. DUBIK, USA (RET.), SENIOR FELLOW, 
                 INSTITUTE FOR THE STUDY OF WAR

    General Dubik. Thank you, Mr. Chairman, for the opportunity 
to address the committee.
    Developing security forces, military and police, during an 
active insurgency where the outcome remains unclear and 
government proficiency and legitimacy are still emerging is no 
simple task and is harder still in the face of a strategic 
deadline. Yet the task is not impossible.
    During my tenure as the Commanding General of Multinational 
Security and Transition Command in NATO [North Atlantic Treaty 
Organization] Training Mission Iraq, we did accelerate the 
growth of the Iraqi Security Forces in size, capability, and 
confidence and improve the Ministries of Defense and Interior 
as well as the Iraqi joint headquarters well enough that when 
the counteroffensive of 2007 and 2008 ended, the Iraqi forces 
were large enough, capable enough, and confident enough for 
coalition forces first to withdraw from the cities and then 
altogether.
    So using that experience in my several trips to Afghanistan 
prior to on active duty and active duty, I present four major 
points for the committee's consideration.
    First, our goal with respect to the Afghan National 
Security Forces must be to create a large enough, capable 
enough, and confident enough set of security forces. Numbers 
matter. The U.S. offsets size with the highest quality 
leadership, recruiting, training, and equipment, but nations 
like Iraq and Afghanistan use size to offset their lack in 
those categories. Capability, combat power, is a function of 
fighting skill and supporting systems, and fighting skill is 
the easiest to develop. The systems that support a soldier or a 
policeman, intelligence, fire support, logistics, command and 
control, are as important as fighting skill, but are much 
harder to develop.
    And confidence comes in three categories. First, the 
Security Force is confident in itself; second, the people's 
confidence in their own security forces--and this confidence is 
a function of the ability to impose security; and then fairness 
in enforcing security, once imposed; and last, the government's 
confidence to use their security forces.
    My second major point. Three types of partnerships will be 
required to meet this ANSF [Afghan National Security Forces] 
development goal: Partners in training and institutions, 
embedded partners, and unit partners. The numbers and types of 
partners will change and diminish over time, but all three will 
be required, in my view, in some form well after 2014. In a 
post-2014 Afghanistan, the Office of Security Cooperation 
approach used in Iraq will not work.
    My third major point. Neither the ANSF nor their associated 
ministries will be self-sustaining by 2014. This is the main 
reason why an Office of Security Cooperation approach will not 
work. They will need assistance in developing their human 
capital, acquiring and maintaining their equipment, funding, 
and most importantly, in improving the systems and procedures 
associated with good tactical through institutional 
performance.
    My last main point. Illiteracy and corruption are 
conditions that cannot be ignored, but need not impede progress 
toward the ANSF development goal. In Afghanistan, insufficient 
literacy is a national condition and growing the literacy rate 
will be a multigenerational activity. In the last 2 or 3 years, 
the ANSF has played a huge part in improving this national 
problem. Illiteracy rates do affect the growth rates of both 
leadership and technical skills and therefore aggressive 
literacy training will have to continue for some time. But the 
literacy programs are a positive influence in a retention 
within the ANSF.
    Corruption is also a national condition. It is not going 
away anytime soon. For the Ministry of Defense and the ANSF 
themselves, this means a robust inspector general and a 
sufficiently independent criminal investigation division is 
important. In the Ministry of Interior it means sufficient 
independent internal affairs organizations, from ministerial to 
a district level. While we can't expect these kinds of 
anticorruption measures to be immediately effective, we can 
expect that they exist, that their caseloads expand, and that 
cases are closed with some sort of satisfactory action.
    So in closing, I have addressed the development of the 
Afghan National Security Forces as if such development is an 
independent activity. Of course, it is not. Rather, it is very 
much a dependent activity. First, depending on the sense that 
the government of Afghanistan has credibility with its people 
and will prevail over the insurgency. Second, and related to 
the first, the capability of any security force is always 
relative to the enemy it is fighting. Thus, the ISAF 
[International Security Assistance Force] requirement is to 
drive down the capacity of the Taliban, the Haqqani network, 
and others, to a level that the Afghans can in fact handle with 
the size force they have. And finally, success depends upon 
continued U.S. and NATO commitment.
    Again, thank you, Mr. Chairman, for this opportunity and I 
look forward to answering your questions.
    Mr. Wittman. Thank you very much, Lieutenant General Dubik.
    [The prepared statement of General Dubik can be found in 
the Appendix on page 30.]
    Mr. Wittman. Now we will go to Dr. Felbab-Brown.

STATEMENT OF VANDA FELBAB-BROWN, PH.D., FELLOW, FOREIGN POLICY 
                 STUDIES, BROOKINGS INSTITUTION

    Dr. Felbab-Brown. Mr. Chairman, members of the 
subcommittee, I am honored to able to address you today.
    The linchpin of the transition strategy in Afghanistan and 
its most developed element is the gradual transfer of 
responsibility from ISAF to Afghan National Security Forces. 
However, in handing responsibility over to the Afghans, we are 
handing over a stalemated war and the territory clearly that is 
being handed over is much smaller than projected.
    Few Afghans believe that a better future lies on the 
horizon after 2014. The result is pervasive hedging on the part 
of key power brokers as well as ordinary Afghans. Worse yet, 
Afghans have become disconnected and alienated from the 
national government and the country's other power arrangements. 
Governance in Afghanistan has been characterized by weakly 
functioning state institutions that are unwilling and unable to 
uniformly enforce laws and policies.
    Standing up the ANSF has been one of the brightest spots of 
the transition. But it is also a big unknown. Its size and 
quality has been growing, but for many years beyond 2014 it 
will be dependent on ISAF for critical enablers such as in 
command and control, intelligence, air support, medical 
evacuations, and others. Moreover, much of the transfer of 
responsibility to ANSF remains undefined, including what does 
it mean that the ANSF will be in lead as of mid-2013, how many 
U.S. forces will stay, how narrow the U.S. mission will be 
defined, is it simply counterterrorism after 2014 or on-base 
narrow training.
    One thing is clear, however; the faster we go out, the 
smaller the U.S. military presence, the greater the chance that 
whatever achievements have been accomplished will be 
undermined. A disturbing big unknown is whether the ANSF 
itself, including the Afghan National Army, will in fact be 
able to withstand the ethnic and patronage fractionalization 
that is already fracturing the institution today.
    Even the Afghan National Army is being increasingly 
threatened and weakened by corruption. The Afghan National 
Police is notorious for being both ethnically fractionalized 
and deeply corrupt, being seen by many Afghans as the true 
perpetrator of many crimes. It lacks any anticrime capacity.
    Among the most controversial aspects of the transition 
strategy is the standing up of various militias, including the 
Afghan Local Police. In highly contested communities rift by 
ethnic and tribal divisions there is a substantial risk that 
the ALP [Afghan Local Police] itself will become the source of 
conflict as well as a source of corruption and it will start 
preying on both local and neighboring communities.
    Let me offer a few policy recommendations. The political 
and governance system in Afghanistan is so pervasively corrupt 
that there is a need to prioritize some anticorruption efforts. 
Among the most critical one is to limit ethnic and tribal 
discrimination that drives entire communities into the hands of 
the Taliban, particularly such discrimination in the standing 
up of the ANA [Afghan National Army] and ANP [Afghan National 
Police]. Expanding access to markets and contracts and 
expanding such access so it is not ethnically and tribally 
driven is also critically important. Whatever effective local 
officials there are--and often there are very few--they should 
be supported and efforts to undermine them should not be 
tolerated.
    The United States and the international community should 
seek to diminish and ideally neutralize the influence of 
problematic power brokers. There are very many and it is a 
difficult task, but we should get away from the policy of 
cobbling them for the sake of shortened battlefield exigencies. 
But whatever redlines we set for the power brokers, we need to 
be willing to uphold and punish those who transgress those 
redlines.
    ISAF needs to resist the siren song of speeding up the 
formation of the ALP and expanding the program. In fact, I 
would argue it is important now to develop a credible and 
robust mechanism to roll back those units that have gone rogue 
and to start thinking about how to demobilize the ALP after 
2014.
    Persevering with whatever capacities and resolve can still 
be gathered in the United States and in the West and 
emphasizing good governance does not guarantee success. Many of 
the large and deeper trends may not be completely outside the 
control and beyond the diminishing leverage of the 
international community. But we still have leverage and we 
still can pull some levers. Going out fast, defining success 
and the mission in 2014, after 2014 in very narrow 
counterterrorism terms, and the writing off of governance only 
spells failure of the entire effort.
    Thank you.
    Mr. Wittman. Thank you, Dr. Felbab-Brown.
    [The prepared statement of Dr. Felbab-Brown can be found in 
the Appendix on page 43.]
    Mr. Wittman. We will go to Dr. Katzman.

   STATEMENT OF KENNETH KATZMAN, PH.D., SPECIALIST IN MIDDLE 
        EASTERN AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Dr. Katzman. Thank you, Mr. Chairman and the committee, for 
asking CRS to invite me today. I will summarize my testimony 
and look forward to your questions afterwards.
    Having followed Afghanistan since 1985 as a U.S. Government 
analyst during Soviet occupation, one conceptual problem I 
think we have with the term ``corruption'' is that it is used 
to describe a lot of different behaviors in Afghanistan, some 
of which are illegal and illicit, some of which are simply 
cultural and traditional and do not involve the use of power 
and position for personal gain.
    The ANSF, as I totally agree, is influenced by many related 
factors, ethnic, political and regional factionalism, that I 
would like to discuss today, because they have the potential 
for the ANSF to fracture after 2014.
    Fundamentally, the ANSF is not a long-established 
institution. There was no military in 2001 when the United 
States led the effort to kick out the Taliban. The military had 
been completely disbanded during the fighting of 1992 to 1996 
and the Taliban regime of 1996 to 2001. So there is no 
tradition of professionalism in the Afghan National Forces. We 
have built them from scratch.
    After the Taliban fell in 2001, a lot of the factional 
fighters from the north, the Tajiks particularly, Uzbeks, 
Hazaras, who had fought the Taliban, they were simply put on 
the rolls of the Defense Ministry. They were declared Defense 
Ministry employees for all practical purposes, but they were 
basically militia fighters. The international community then 
decided to disband these militia fighters and build a new 
national army from scratch. And so this is the reason there is 
no professional tradition.
    Even though there was a decision to disband these militias, 
many of them simply stashed weapons, many of them simply keep 
caches, and many of them continue to report to the informal 
power brokers that we have been discussing. In addition, 
because there is no tradition of professionalism, the force is 
subject to all the corruption factors that we see generally in 
Afghanistan. Demanding bribes; particularly the ANP demand 
bribes from citizens at checkpoints. Selective justice; putting 
people in jail or taking them out of jail, in many cases based 
on who they are or appeals from the family. Embezzlement. 
Numerous examples exist where the United States has given the 
ANA and ANP weaponry and then they have sold it and put the 
money in their pockets. They have sold fuel. And then they are 
claiming they are unable to move around to perform missions 
because they sold the fuel we gave them.
    Ghost employees: putting people on the payroll that do not 
show up for duty in the ANP and ANA. Diverting of salaries. 
This has been a great problem. Initially, the salaries were 
given to the commanders to give out to their people. So the 
commanders were putting a portion in their pocket and then 
giving the rest to the people under their command.
    As I said, selling of donor-provided vehicles. Illicit 
activity: we have had numerous reports of ANP headquarters with 
poppy fields growing poppy right there at the police 
headquarters. We had a recent example of U.S. investigators 
looking into half the Afghan Air Force flying narcotics around 
the country. Absences without leave. Afghanistan has very 
little banking system, even today. So a lot it is dealt with in 
cash. And the tradition in Afghanistan is a soldier will go 
bring his mother his payroll in cash. It is very difficult to 
just wire money around. So a lot of them go home for a month, 
give their mother the money, and then they disappear for a 
month. And usually they do make their way back.
    But the issue I want to in my remaining time get to is this 
issue of factionalism, because I think that really has the 
potential to destroy the force outright if it is put under 
pressure. Now if the United States is there in significant 
numbers after 2014, the U.S. can keep these pressures under 
control. If, however, the Taliban begin making gains after 2014 
or if Karzai or his successor makes a deal with the Taliban 
that the Northern factions view as consolidating the Pashtun 
faction--Karzai is a Pashtun; Pashtuns are about 42 percent--
the force could break up. A lot of them have loyalty to 
warlords, these factional leaders. The Vice President, Muhammad 
Fahim, a lot of Tajiks are loyal to him. Uzbek leader Abdul 
Rashid Dostam, from the north, many in the ANSF are loyal to 
him. He has a very unsavory record of human rights abuses. Atta 
Mohammad Noor, the Governor of Balkh Province, has a large 
following in the ANSF. Mohammad Mohaquiq, a leader of the 
Hazaras, which are Shiites, many Hazaras in the force follow 
him. Isma'il Khan, a Tajik from the West, he is now Energy 
Minister. Still, many people loyal to him. And the Karzai 
family that basically runs Kandahar, many in the force, 
Pashtuns, are loyal to them.
    Mr. Wittman. Dr. Katzman, thank you. We will make sure your 
testimony gets entered in its entirety into the record. We 
appreciate that.
    [The prepared statement of Dr. Katzman can be found in the 
Appendix on page 61.]
    Mr. Wittman. We will go to questions.
    Mr. Cooper, I will go to you first.
    Mr. Cooper. Thank you, Mr. Chairman.
    Dr. Felbab-Brown, you have studied corruption and problems 
in many tough areas of the world. Are the Afghan problems 
particularly bad or are they pretty much par for the course 
from Mexico, Colombia, countries you have studied?
    Dr. Felbab-Brown. In my view, they are particularly bad. 
Although, of course, the region, Afghan and more broadly the 
part of South Asia and Central Asia, is very corrupt, what is 
striking about Afghanistan is the extent to which corruption 
undermines any basic legitimacy the population feels toward the 
existing political system.
    What is also very disturbing about the nature of corruption 
in Afghanistan is the patronage networks have been shrinking 
and becoming increasingly exclusionary. In my view, it is very 
difficult to imagine how the regime could continue operating 
beyond 2014, even if President Karzai does not remain in power 
and in fact does not run for reelection and does not seek to 
change the constitution, without some effort to make the system 
more legitimate.
    What is also disturbing about corruption in Afghanistan is, 
of course, it is overlapped with the ethnic and tribal rifts, 
and the ability of the Taliban insurgency to emphasize 
corruption as a key motivating mechanism for the population to 
tolerate if not outright support the Taliban.
    Mr. Cooper. Would it make sense to just go ahead and de 
facto allow the warlord system to continue? Because as Dr. 
Katzman mentioned, these ethnic differences seem to be so great 
that Tajiks support Tajiks, Hazaras support Hazaras, Pashtuns 
support Pashtuns.
    Woodrow Wilson had a policy of ethnic self-determination.
    Dr. Felbab-Brown. However, what is, of course, difficult in 
the case of Afghanistan, is the way in which these different 
allegiances overlap. There are many rifts even within the 
ethnic communities. There are different power brokers within 
the same ethnic communities. And increasingly the population 
really does not see the power brokers or the warlords as 
legitimate. In fact, from my interactions with ordinary Afghans 
during repeated trips to Afghanistan, I am struck by the 
craving for a state that could be legitimate, that could 
deliver justice, and that would allow people to break out of 
the clasp in which the warlords have them. But to the extent 
that the security situation is difficult and there is more and 
more identification of the basis of narrow patronage as the 
only mechanism of access to security, the more difficult, of 
course, it is to break out from these warlords. But I hear 
repeatedly how much people really dislike the mafia rule or the 
patronage, the nepotism. So I don't feel it is a viable path 
for a stable Afghanistan.
    Mr. Cooper. Your recommendation to go ahead and disband the 
ALP is startling. It is very much counter to the U.S. military 
point of view.
    Dr. Felbab-Brown. I am aware. I also do not believe that it 
is likely that we are going to move quickly to disbanding the 
ALP. But I think one of the biggest burdens we can saddle, 
whatever Afghan government there is, it is an open-ended bag in 
which these militias, ALP being one of them, exist. But there 
is no clear path to dismantle them because they have the huge 
potential of triggering insecurity in local areas and 
fundamentally in the short term as well as in the long term 
they are one of the most difficult aspects of governance, to 
the point that they even prevent or complicate the rule of the 
warlords, should it ever come to that.
    Mr. Cooper. I thank the chairman. In view of the shortness 
of time, I will yield the balance of my time.
    Mr. Wittman. Thank you, Mr. Cooper.
    We will go now to Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Dr. Felbab-Brown, so you are referring to the ALP as part 
of that village stabilization program, am I correct in that?
    Dr. Felbab-Brown. Yes.
    Mr. Coffman. So it is your concern that that merely feeds 
the sort of factionalism and militia content?
    Dr. Felbab-Brown. Often that is the case. I would emphasize 
there is a need to look at the ALP in local context and that in 
fact Afghanistan is an extremely diverse and varied place. But 
of communities are not homogenous; if they are rift by ethnic 
and tribal divisions, militias, including the ALP, is yet 
another trigger of conflict, competition over land, resources, 
and a trigger of security dilemma.
    Mr. Coffman. Let me just refer to the whole panel in terms 
of if you were to make one recommendation as to how we can 
counter corruption and better account for U.S. taxpayer dollars 
as well as those from our coalition allies in the international 
community, what recommendation would that be? General.
    General Dubik. Well, sir, it would be the recommendation 
that I made in my opening remarks. On the military side, a 
robust, independent inspector general criminal investigation, 
and on the Ministry of Interior and police side and internal 
affairs. To get those systems going, however weak they might be 
at the beginning, but to keep moving them forward and expanding 
their strength and their semi-independence as internal 
mechanism to look at the defense and interior forces.
    Mr. Coffman. That is incredibly challenging.
    General Dubik. It is incredibly challenging.
    Mr. Coffman. I think this committee had looked at the 
situation with Dawood Hospital and the corruption that occurred 
there and with military medical supplies that were sold and the 
fact that soldiers and police, their families, had to pay the 
requisite bribes to the hospital personnel before they were 
treated or fed. And so the commanding general that was in 
charge of the hospital was merely laterally moved, was never 
disciplined, to our knowledge, for that.
    General Dubik. I can just say that with my experience in 
Iraq, the Minister of Interior's Internal Affairs had 12 
assassination attempts in the 15 months that I was there. This 
was a gruesome but very telling metric that his system was at 
least having some effect.
    Given the political situation, sometimes lateral moves are 
a satisfactory solution. It may not always be the case that a 
person is fired or tried or jailed. Merely eliminating might be 
good enough for now. And until the system gets more robust and 
stronger and better outcomes can occur, you might have to just 
say lateral moves are okay.
    Mr. Coffman. Dr. Katzman.
    Dr. Katzman. Thank you. I think there is really no magic 
bullet for corruption in Afghanistan. I think we have 
repeatedly thought that by creating anticorruption institutions 
and getting Karzai to make statements--and he just issued a 
huge administrative decree last week with all sorts of 
anticorruption provisions--we feel we are going to make 
progress. And we never do.
    Not to paraphrase former Secretary of Defense Rumsfeld, but 
we have to deal with the Afghanistan we have. It is very 
difficult. Every Afghan feels the regime may collapse and he is 
going to have to run quickly and he wants as much money as 
possible. So it is very difficult to grapple with.
    Mr. Coffman. Let me put this question forward and if you 
all could answer briefly because my time is very limited, and 
that is: Is it that the Afghans don't have confidence that the 
regime is going to hold and so they are looking out for 
themselves in terms of their own economic security or financial 
security and lining their pockets as much as they can, while 
they can? Or, is it something so such a part of their culture 
that even if they felt the regime was going to last forever and 
the United States was going to be physically there forever, 
that there would still be the same level of corruption as there 
is today?
    Who would like to answer that?
    General Dubik. Well, I will take a shot, sir; a very short 
shot. I think it is a combination. People are people. And some 
cases of corruption are just that, unsurety of the future. I 
have no retirement. I have no future. I have to protect myself. 
That is one face of corruption. Power and intimidation is 
another face of corruption. And mere greed and nefarious 
character is another face of corruption. It is not a single-
source activity.
    Mr. Wittman. We are going to at this point recess. We have 
a series of votes that we have to get to the floor to. I will 
ask the indulgence of the witnesses to return. We should be 
returning here by about 5 o'clock. We would like to pick up 
questioning from there. From there, we will also have an 
opportunity to go through a second round of questioning for the 
members that are here now.
    So we will recess and we will reconvene when we come back 
from votes approximately 5 o'clock.
    [Recess.]
    Mr. Wittman. Panelists, thank you so much. We appreciate 
your patience. It was an interesting time across the street.
    We are back here to get back to our line of questioning. I 
will go ahead and begin. And we have several other members that 
are in line to ask questions. We will make sure that they get 
to ask theirs when they come back.
    I wanted to ask Lieutenant General Dubik a question. Some 
Afghans believe that the U.S. and its allies aren't really 
serious about fighting corruption, and the reason being is 
because we have had alliances with different power brokers 
there and leaders that have been associated with corruption and 
trying to achieve certain things. So I think the Afghans look 
at us and say, If you are going to deal with leaders that are 
corrupt, how then are we supposed to battle corruption if you 
are going to essentially try to secure gains through those 
particular efforts?
    How do you feel, first of all, that the Afghans view that? 
Is it something that creates credibility on our behalf when we 
try to advise them about how to avoid corruption and when we 
have been dealing with leaders that have been associated with 
corruption? I just wanted to get your thoughts on that and 
really to what extent should we tolerate corruption as we try 
to navigate our way through the current position that we are 
in, in the transfer of power and making sure that there is some 
level of stability there in the country?
    General Dubik. Going back to my Iraq experience, I guess if 
I was only allowed to deal with people who I knew were 
absolutely clean, it would be talking to myself in the mirror. 
So as a matter of working with people that you have to work 
with to move something forward and trying at the same time to 
reduce their involvement in corrupt activities, that is, 
unfortunately, the situation in which many of the senior 
leaders find themselves in.
    But there is a line beyond which we shouldn't cross; that 
there are some kinds of levels of corruption that are so 
nefarious that they erode our own credibility and therefore 
erode our risk to the mission itself. And in those kind of 
situations, when they come up, it is hard to say that person 
has to go, we can't deal with that person anymore, because who 
is going to be the replacement. It really is a physical 
conundrum if there ever was one.
    Mr. Wittman. Dr. Felbab-Brown, I wanted to maybe elaborate 
a little bit on that. Mr. Cooper spoke about the system of 
working with warlords that the U.S. pursued initially and then 
said, No, we actually need to go to a different system. But is 
there a utility or a need to deal with those different factions 
here? And we talked about how the country ethnically is broken 
up. Is there a need to actually do that? And we know that there 
is some corruption within that warlord system. Is there a need 
or an association with our success and being able to deal with 
those folks? Even though we know that there is corruption 
there, we know the problems that we deal with from an ethical 
standpoint in doing that and what that means in the long term 
for the country.
    Dr. Felbab-Brown. Mr. Chairman, it would be unrealistic and 
perhaps naive to believe that we can completely do away with 
the power brokers or completely not deal with them. It would be 
equally naive that we can combat all of corruption. I think 
where we have run into real difficulties is that we have 
systematically been unable to bypass even the most pernicious 
power brokers that undermine institutions that we have been 
trying to build. So today, really, we have very few 
institutions. We have structures that revolve around 
personalities, often personalities that are profoundly 
illegitimate from the perspective of Afghans that have 
participated in land theft, murder, systematic tribal 
discriminations, all of which are fodders for the Taliban 
insurgency and for mobilization against the government.
    So the question is really not do we deal with power 
brokers. The question is: What are the redlines that we draw 
for power brokers, how visibly we embrace them. I am very 
concerned when I see us embracing Afghan commanders that 
perhaps are effective on the battlefield but have a record of 
mass murder. If we embrace them publicly and if you allow them 
to perpetuate behaviors, that drives entire communities into 
the hands of the Taliban.
    I am equally, however, concerned when I see us setting 
redlines that we then do not have the wherewithal to uphold. I 
think that extremely hurts the mission. So we need to be very 
careful to assess what behavior absolutely undermines the very 
fundamentals of what we are trying to achieve--any chance of a 
stable government--but then really be prepared to impose some 
punishment for those who violate the redlines.
    Unfortunately, I see us being stuck in situations where we 
publicly say we are determined to combat corruption, and 
corruption defined very broadly, including things like land 
theft, systematic discrimination, and say no, that is 
intolerable. You cannot steal the votes, you cannot beat up 
this village, and then when it happens say, Oh well, next time 
we really mean it; you cannot do it.
    Mr. Wittman. Very good. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. I want to believe that 
the average Afghan that you have described wants a better 
system and wants to be clean, but so often it seems like they 
just want to take the place of the dictator or the kleptocrat. 
Can you identify a completely clean noncorrupt Afghan leader?
    Dr. Felbab-Brown. I think I can identify individuals, many 
of whom are not in positions of power, where one would say they 
are completely not corrupt. And we need to, I think, understand 
the systems of corruptions is indeed system, not simply 
individual vices. The reality is that to become a leader in 
Afghanistan, one needs to conduct a lot of compromises and a 
lot of engaging in very brutal politics, power politics.
    I would, again, go back to what kind of corruption can be 
lived with and what kind of corruption is tolerable to the 
Afghans. So the issue is not so much that you have to pay an 
extra fee, a bribe to get a license for something. The issue 
becomes where you systematically cannot get a contract or 
cannot bid for a contract because you are member of a different 
tribe. That is the level of corruption that is intolerable to 
Afghans and that is the kind of corruption, that is the kind of 
power abuse we should be focusing on, even if we cannot say 
absolutely no one is corrupt. And, unfortunately, what has 
often happened is we have embraced local leaders, we exalted 
them, and later on we discover how extremely problematic they 
were and how much they were involved in criminal activities or 
even siding with the Taliban. So that is not the base that we 
should say. That is not the baseline that we should set. It 
should be about what levels of corruption and abuse 
systematically undermines the effort.
    What I fear increasingly is that the very impressive, very 
committed young Afghans--often young Afghans--that I think have 
a great commitment to their country are increasingly finding 
themselves squeezed out of the political system and having less 
opportunity to participate. The more insecure the country will 
feel after 2014 and heading up to 2014, the less space for them 
will be to push for any changes.
    Mr. Cooper. My able military aide, Major Ray Windmiller, 
had these questions he wanted to ask. How is the transition 
going in the Tranche 3 areas? Anybody has a response to that?
    Dr. Felbab-Brown. If I may start on that, I think Tranche 3 
is very important. It is the first time that the Afghan 
National Security Forces are encountering difficult 
environments. The difficulty will be Tranche 4 and Tranche 5, 
but it is the first time that Tranche 3 includes some districts 
where there is deep military concentration and very problematic 
governance.
    I think the verdict is still out. I think there are 
concerns. But the good thing about Tranche 3 is that it is 
still opportunity for backup, which there might not be in the 
same extent in Tranche 4 and Tranche 5, which will be even more 
difficult environments.
    What concerns me about transition and the tranche concept 
is that more and more it is simply a one-way street. There is 
really very little opportunity for ISAF forces to come back to 
aid us that have gone problematically. And that is worrisome. 
And it is given by the drawdown schedule, by the timeline 
schedule.
    Mr. Cooper. When you talk about anticorruption efforts, 
could you give us a specific example of what might work? You 
talk about how they don't like land theft or murder and then 
that forces them into the arms of the Taliban. And the Taliban 
is known for murder. They have prompt justice, but is it fair 
justice? It is--your choice is between evils, isn't it?
    Dr. Felbab-Brown. Yes, you are absolutely right the Taliban 
is, of course, brutal, and in many ways it is a choice between 
evils. What I find in many settings, including Afghanistan, is 
that what is most difficult for people to adjust to and develop 
coping mechanisms is unpredictable abuse, unpredictable 
delivery of power or delivery of rules. And, unfortunately, the 
Taliban is capable of delivering a brutal order but nonetheless 
a predictable order. Indeed, very many of my Afghan 
interlocutors constantly draw on the comparisons to the Taliban 
era and they will say it was very brutal, we disliked the 
Taliban, we hated the Taliban, but there was predictability. We 
could adjust. There was no crime. You could travel between 
Tarin Kot and Kandahar and no one would draw a buzz and we 
could have a million rupees. At the time, it was rupees. Now we 
will have to pay to the Taliban, we will have to pay the 
police, we will have to pay to the ANA, whoever has a 
checkpoint. You will have to pay to the power broker.
    So the most difficult thing for them is just the cause of 
the situation and the unpredictability. One of the major 
weaknesses of our campaign is the lack of focus that we devote 
to crime. The Afghan National Police is all focused as either 
counterterrorism force or light counterinsurgency force. It has 
close to no capacity for dealing with any form of crime. And of 
course the Taliban is not bound by the same burdens of proof. 
It can simply designate this is the victim or this is the 
perpetrator of the crime, here is the victim, here is the 
punishment. And people gravitate to it. I see the Taliban all 
the time outcompeting us in the delivery of ``justice.'' And it 
is, of course, tragic, given how abusive and terrible they are. 
But I all the time hear from my Afghan interlocutors that the 
Taliban fares far better than the Afghan government in 
delivering justice.
    Mr. Cooper. I see that my time has expired. Thank you.
    Mr. Wittman. Go ahead, Dr. Katzman.
    Dr. Katzman. If I can just add to that. In my talks there 
is not public popular support for the Taliban. In some cases, 
they are winning through intimidation. People do go to the 
justice system that the Taliban run mainly because it is 
accessible. To get to formal justice system, you may have to 
drive far distances and you may not trust the outcome. But 
primarily the Taliban justice system may be right there in a 
community you know. It may be Duranni Pashtuns. There is a few 
types of Pashtuns. Duranni Pashtuns would rather use a Duranni 
Taliban informal justice than a Ghilzai Pashtun formal justice. 
So there are some affiliations there that we don't really quite 
understand that well. But these are factors, too. But I would 
say that there is not popular support for the Taliban. When 
they came in in 1996, they were welcomed. People welcomed them 
into the communities. That is not happening now. They fight 
their way in, they intimidate their way in, but they are not 
welcomed. So I think the lion's share of Afghans still want the 
government to succeed. The problem is we are not seeing the 
level of success that we would hope for.
    Mr. Wittman. Very good. Thank you. I want to pose this 
question to all the panel members. A media outlet recently 
reported that an Afghan general felt like he had to halt 
missions because his target had influence or was influential in 
the Taliban government. I wanted to ask your perception on 
that. Do you believe that that is happening? And if it is, how 
does it affect the operational success of the ANSF, obviously 
both in the short term, but in the long term also.
    General Dubik. I don't know specifically whether that was 
true or false. There are times in an insurgency where you go 
after targets without any political influence. But there are 
also times where you have a target, but for political reasons 
you don't go after them right now, where the damage done by 
succeeding diminishes the overall positive effort. So I can 
conceive of cases. I did picture a few in my head where person 
X was eminently killable but we said, Let's not kill him right 
now. Let's not capture him right now.
    So I don't see that as inconsistent with the way you might 
wage a counterinsurgency campaign, or a counterterrorist 
campaign, for that matter.
    Dr. Felbab-Brown. I also do not know the specific context 
of the statement, but certainly one of the manifestations of 
the ethnic tensions in the Afghan National Army, and more 
broadly ANSF, is a constant complaint from the Tajiks that the 
Durrani Pashtuns, Kandahari Pashtun factions are preventing 
them from going after targets they would like to go after. What 
one hears from the Pashtun side of the Afghan National Forces 
is that many of the targets that the NDS [National Directorate 
of Security] and Tajiks are designating as targets are perhaps 
personal targets and being unfairly labeled as the Taliban.
    I think it is critical that ISAF very much focuses on 
trying to understand the patterns of behavior and patterns of 
interest that are emerging for the different factions of the 
ANSF. What worries me about the future ahead is that 
increasingly the ISAF is going to be dependent on Afghan 
interlocutors for developing good local intelligence pictures, 
and particularly intelligence pictures with respect to 
targeting patterns and with respect to designation of who is 
the Taliban, who is the enemy, and that can in itself become a 
trigger of violence and further intensify pressures for the 
fracturing of the ANSF.
    Dr. Katzman. I would add that it is not only the Afghan 
side that we are seeing this, there have been some reports in 
the press that have come out that actually the U.S. military 
has been doing what is called selective releases of certain 
Taliban commanders from Bagram, where they have been imprisoned 
at Bagram Air Base, for the purpose of ingratiating with 
certain Taliban factions. And it is U.S. policy to try to 
promote a reconciliation between the Taliban and the Afghan 
government.
    So I think we are going to see more of this, pulling our 
punches, not going after certain targets, selective releases of 
certain Taliban who are perceived as perhaps having the ear of 
Mullah Omar, the Quetta Shura, maybe even the Haqqani Network. 
So I would say it is not a surprise that we are seeing these 
type of things.
    Mr. Wittman. Dr. Felbab-Brown, let me ask you this. In some 
previous testimony witnesses have stated that they believe the 
U.S. should pick a winner in the next Afghan election. What is 
your opinion? What do you think of that proposition?
    Dr. Felbab-Brown. I do not believe this would be a good 
policy, for a variety of reasons. One, I don't believe the U.S. 
record in picking winners is very good in either Afghanistan--
of course, we haven't picked, but we clearly supported the 
leader that turned out to be problematic as time went on, but 
more broadly in other contexts.
    I am also not persuaded that we have the capacity to really 
enforce the winner to either take place and win the elections 
or, if necessary, to support the leader beyond. And ultimately 
I do not believe it would enhance the legitimacy of that 
leader, and perhaps it could be a kiss of death for him--it 
will likely be him. There is very little chance it would be a 
woman.
    So I do not believe it is a good suggestion, a good policy. 
I, however, believe that in fact we should go in the opposite 
direction. We should try to enable whatever procedural 
legitimacy that can be built for the elections as well as help 
the Afghans very quickly draw up security plans for the 
election, should the elections take place. Clearly, the 
elections will be extremely problematic, extremely contested. 
Elite consensus has collapsed. I think the vitriolic level that 
we saw in 2009, 2010 after elections is nothing to what we are 
heading for with 2014. So it will be a political earthquake for 
Afghanistan. An extremely fragile period.
    Mr. Wittman. Dr. Katzman.
    Dr. Katzman. If I can add to that, an interesting example 
is actually in 2009 President Karzai believes the U.S. did try 
to pick a winner, which was against him, Ashraf Ghani, who 
reconciled subsequently with Karzai and is now working for him 
as the transition director. And what it led to was Karzai 
subsequently basically tried to freeze out Ambassador 
Holbrooke. And it caused a tremendous rift with the SRAP 
[Special Representative for Afghanistan and Pakistan] office. 
So it has proved problematic in the past.
    Mr. Wittman. Lieutenant General Dubik.
    General Dubik. I didn't want to--I don't have the expertise 
to answer the political question, but I did want to talk about 
2014. Because the conjunction of events in 2014--the election, 
our downsizing, and the potential beginning of the downsizing 
of the Afghan forces--is really an unholy mix of activities. 
And the timing of these activities is really important. We saw 
in Iraq, for example, the second Maliki government taking a 
year to form, and in that year not very many decisions, and led 
to a period where we couldn't even make good decisions between 
the two governments. So the timing of such a transition is 
important.
    And with respect to the ANSF, the beginning of any thought 
of reducing them in size at a time that is going to be 
politically difficult and at a time when we are reducing ISAF 
forces and ISAF funding and U.S. forces and U.S. funding would 
be very problematic with respect to the confidence of the ANSF.
    Mr. Wittman. Okay. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you.
    Does it make any sense to respect the Durand Line?
    Dr. Felbab-Brown. Respect for, or disrespect for what 
purpose? I think the----
    Mr. Cooper. Well, we don't want to anger the Pakistanis.
    Dr. Felbab-Brown. I understand. And what I was----
    Mr. Cooper. There is not much difference between the 
Federally Administered Tribal Area and that part of 
Afghanistan, and it is an arbitrary line on a map drawn by the 
Brits. And we spend, what, you know, enormous amounts of money 
enforcing British lines on a map, not just there but Iraq, the 
Middle East.
    Dr. Felbab-Brown. Understood. And I think we need to be 
very conscious of carefully calculating what benefits we would 
get out of more aggressive, more visible actions on the 
Pakistani side with respect to the Afghan environment, with 
what kind of precipitating triggers in Pakistan that could 
generate.
    And I am well aware of the game that Pakistan constantly 
plays with us. That is, if you push too aggressively, we are 
too fragile and we will collapse, and so we feel a great deal 
of restraint. I am well aware of the game.
    At the same time, Pakistan is extremely fragile. There are 
very few trends that are going right in the country. It is a 
country in a meltdown, or slow meltdown, if you would like, 
crumbling. And, of course, the consequences of a more 
fundamental crumbling in Pakistan beyond FATA [Federally 
Administered Tribal Area], but in Punjab, would be 
extraordinarily bad for the region and for the United States. 
So, unfortunately, we are stuck with treading very carefully 
across the Durand Line and more broadly in Pakistan.
    Mr. Cooper. It is so terribly frustrating when, you know, 
we won't even change our textile policies to encourage more 
jobs or manufacturing in what is now the sixth-largest country 
in the world, or maybe the fifth.
    Dr. Felbab-Brown. I understand.
    Mr. Cooper. And, you know, we seem unable to coordinate our 
policy very well. And we always seem surprised when there is 
corruption. And it could well be that, you know, the natural 
state of human beings is corrupt, not innocent, you know, and I 
wonder if we have ever tried that as a foreign policy premise. 
Because there are some U.S. States that aren't very clean, you 
know. If you look at a map of world corruption, most of the 
world is red, the United States is pink, Canada and Australia I 
think are pretty white. But that is not something to brag on.
    But, you know, certainly from a military standpoint, the 
first rule of war is to understand the nature of the enemy. And 
do we train our troops to expect massive wholesale corruption, 
you know, when they go into these places?
    General Dubik. Well, I can say I have never participated in 
a training or education session of acceptance of corruption. 
But----
    Mr. Cooper. But if that is the state of the world and that 
is the nature of the enemy----
    General Dubik. No, but----
    Mr. Cooper [continuing]. Then deal with it.
    General Dubik. And that was why I reacted to the chairman's 
question as I did. If you go into any country--and I have 
invaded several--and you are only going to deal with noncorrupt 
individuals, you are not going to deal with very many people. 
So the issue is how to deal with it in such a way that it 
doesn't undermine the accomplishment of the mission and how to 
deal with individuals and attempt to limit the corruption to 
types that are going to go on anyway.
    Mr. Cooper. I had an unusual discussion with the 
Ambassador, U.S. Ambassador to Yemen, who told me that he was 
not allowed to attend any function at which Khat was chewed, 
which eliminated all functions in Yemen, so weddings, funerals, 
meetings. So he was, by U.S. law, unable to be an Ambassador, 
but yet he was--it is like, hello? You know, so we are not 
meshing Western views very well with these cultures. And we are 
not going to change the cultures, even after 10 years of 
intense U.S. involvement. So why are we there?
    And, you know, the U.S. taxpayer does not want us to be the 
world's policeman. So when you fault us for not conducting more 
police activities inside Afghanistan, that is not what the U.S. 
taxpayer is for.
    Dr. Felbab-Brown. If I can answer, sir, I agree, the U.S. 
should not be the world's policeman. Nonetheless, the United 
States made the decision to go to Afghanistan, and the U.S. has 
a vital interest to see a stable government, not democratic, 
not Valhalla, but a stable government in Afghanistan. And if 
crime undermines the very sustainability of the government, I 
think it is important that the international community focuses 
on developing local Afghan capacities to fight crime to the 
extent that it enables the sustainability of the government.
    I also agree that it is very difficult to change cultures. 
And there are many both cultural and institutional reasons for 
corruption. And I am not concerned with corruption that would 
be tolerable to Afghans. I am very concerned with corruption 
that is intolerable to Afghans, that they find is out of 
proportion, out of the context, that is corruption with abuse 
that makes their lives difficult to the extent that they do not 
want to exist under the current political dispensation.
    Dr. Katzman. I would just add that our--and I cover the 
Persian Gulf region for CRS [Congressional Research Service] 
also, and our entire Persian Gulf defense strategy hinges on 
dealing with governments, the Gulf Cooperation Council 
governments, that are perhaps not quite as corrupt as 
Afghanistan, but corruption is rampant in the Persian Gulf. I 
think we have to accept that in that region, where institutions 
are weak and personalities are strong, that this is just the 
cost of doing business.
    And certainly we could put standards on the Gulf countries, 
on human rights, corruption, democracy, and probably they would 
not meet those standards at any time in the foreseeable future. 
But if we had that standard, our Gulf defense strategy would 
collapse.
    Mr. Cooper. Well, just under the Foreign Corrupt Practices 
Act, all these U.S. entities are liable unless they have some 
exemption that I am unaware of. But it is so routine, as you 
suggest, that they are all in legal jeopardy under our own 
laws, because we just don't want to cope with the nature of the 
enemy or the culture.
    I see that my time has expired. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Cooper.
    Dr. Katzman, let me ask this: Do you believe that the U.S. 
has a clear policy as it relates to reducing corruption in 
Afghanistan, improving Afghan governance? Is there a structure 
or an organization to it that includes something like, you 
know, goals, methods, timetables, that sort of thing?
    And if there is, if there is a plain effort to do that, do 
you think that it is effective not only in how it might have 
been implemented to this point, but is it effective in what the 
structure projects to go forward?
    Dr. Katzman. Yes, I think so. And a lot of these metrics 
have been laid out. Generally, they get laid out at these big 
conferences we have had. We have had conferences in Kabul, we 
had the Bonn conference in December, we had the Tokyo donors' 
conference just 3 or 4 weeks ago. And that is when the Afghan 
Government usually recommits to pledges it has already made at 
the previous conference and did not accomplish.
    Now, as a consequence of the Tokyo conference, there were 
clear penalties. There will be reductions in donor assistance, 
presumably, if the Karzai government does not meet certain 
criteria. That prompted Karzai to issue the administrative 
reforms that I referred to earlier in my testimony.
    Now, again, Karzai's administrative reforms are largely, if 
one goes through them--and I have gone through them--a 
recommitment to what has already been promised. Most of the 
laws that they promised to pass by now have not been passed. 
The institutions we have set up, like the High Office of 
Oversight, the Anticorruption Tribunal, the Office of the 
Attorney General, the Special Investigative Unit, all of these 
institutions Karzai has pledged to cooperate with, he has 
allowed us to set them up, but then when the rubber hits the 
road and it is time to really prosecute people close to Karzai 
or who he supports, who support him, it tends to fall apart. 
And we tend to see him go after people who do not support him, 
or he is trying to marginalize.
    So corruption becomes a political issue, in many ways. It 
is pure politics in Afghanistan.
    Mr. Wittman. Dr. Felbab-Brown.
    Dr. Felbab-Brown. If I can add to that, and, indeed, 
anticorruption efforts are politically manipulated not just by 
President Karzai but by many other people in the position of 
power. And I think we have to be careful not to embrace 
officials that claim to be doing anticorruption while they are 
really appointing to the cleared positions their friends and 
their clients.
    I am not as persuaded as Ken that we have a clear policy on 
corruption. I see U.S. policy over the decade oscillating 
between ignoring corruption because of its sheer size, because 
focus has been far more on the military side than on the 
political aspect of the effort, and then embracing goals that 
are unrealistic, ambitious goals, ``We are going to wipe out 
corruption.''
    That is why I think it is critical that we set goals that 
are realistic, the most egregious corruption that is clearly 
contributing to conflict dynamics. But then we need to have the 
wherewithal to exercise our leverage and punish those who 
violate these minimal standards. And I frequently see us not 
being able to deliver, folding at the last minute. And, of 
course, that just sends the signal that we truly don't see the 
message.
    I also believe that we need to be realistic that the only, 
or the principal mechanism of power and influence that 
President Karzai has is appointments. He has weak control with 
the military and is very much dependent on outside control. He 
has very weak control of the purse. So his principal way of 
assuring support for himself is political appointments. So we 
cannot tell him that anyone who is a bad governor or bad 
official will not be tolerable; we have to be concerned to his 
cause, to his political cause. But we need to be sure that the 
ones that are truly intolerable to us and are truly intolerable 
to Afghans, we will work with him to get rid of them. And I 
don't see that we are taking this more nuanced approach. I see 
us oscillating between everything or nothing and being all the 
time frustrated.
    Mr. Wittman. I think that is a good point. In fact, that 
was going to lead to my next question. It seems like, to me, 
that there are many different levels of corruption. You know, 
there are very obtrusive forms of corruption, where somebody 
does something that is looked at as unethical in exchange for 
money or something that benefits them personally. But it seems 
like, too, that there is also a level of corruption there that 
obviously we define as corruption but maybe is more societal 
there, and that is influence-peddling; you know, I do something 
for you, you do something for me, you protect me, you insulate 
me, you provide that utility to me. Although it may not be a 
direct benefit, it is an indirect benefit in being able to 
preserve one's power or being able to preserve oneself in that 
particular environment.
    Along that range, is there an acceptable area that the U.S. 
should say, officials that operate within this realm, while 
maybe not acceptable in the United States, should be acceptable 
there in Afghanistan as far as how that government develops and 
how we look at corruption? Because there are many, many 
different levels of that, and if we cast off this blanket 
definition of corruption, the question is, can we ever attain 
that?
    And Mr. Cooper brought up a great point, in that there are 
some limitations of U.S. law in how we deal with folks there. 
But is there an acceptable level of what we would define as 
corruption but what there is really a matter of maybe self-
preservation or even being able to maintain power? Is there a 
level there that you think is acceptable?
    Dr. Felbab-Brown. Yes. Realistically, not just Afghanistan 
but the region very much operates on the basis of nepotism and 
patronage. It is something that Afghans are used to. What I 
would say is that the level that should not be acceptable to us 
is the level that is not acceptable to the Afghans. So, 
realistically, we will not be able to do without patronage 
network and have truly simply a process of promotions and job 
appointments based on merit. That is not going to happen 
anytime soon.
    However, we should be very concerned when patronage 
networks are becoming more and more exclusionary and less and 
less people have the ability to participate in these networks. 
So one of our objectives should be, well, how can you expand 
the networks of patronage? That is not ideal; it is 
problematic. I wish that was not the case, but it is probably 
the only mechanism that we might have available in some 
circumstances.
    What concerns me is that I do not see us exercise even 
these levels of leverage, that I do not see us even be 
concerned about patronage, nepotism, exclusionary corruption, 
contract wars. There are literally contract wars of shooting up 
the opposition, where they are clearly alienating people and 
communities so profoundly from the government that they are 
easy prey, easy mobilization target for the Taliban.
    And so I think we really need to have far more 
consultations with ordinary Afghans, as well as power brokers 
in Afghanistan, about what level of political arrangement they 
believe can be sustainable. And from my conversations with 
Afghans over the many years, including recently, there are very 
few people in Afghanistan right now who believe that the 
current political dispensation is sustainable.
    Mr. Wittman. Dr. Katzman.
    Dr. Katzman. No, I mean, I think that is a very good point. 
When the Taliban fell, the international community set up a 
very high standard: that we are going to remake Afghanistan 
into a Western-style democracy with Western-style standards of 
human rights, anticorruption. And then that was doomed to fail. 
Had the standard been set more realistically from the 
beginning, we could have accomplished that and built these 
institutions.
    The problem we have had is, each time we have pushed on 
corruption, Karzai has pushed back. When Karzai has had his 
outbursts of, ``I am going to join the Taliban,'' or, ``You are 
putting too much pressure,'' it has been over this corruption 
issue. Every time we have pushed, that is when he has had his 
moments, let's say.
    So it has been a very difficult issue. It is not going to 
be solved anytime soon. I think the issue is to stay engaged 
after 2014, let the society keep evolving, as it is. Civil 
society is much broader than it was in 2001. You have groups 
that are advocating for all types of things in Afghanistan that 
never existed before. Let the society mature, and that will 
help, I believe, reduce the problem over a long period of time.
    Mr. Wittman. Let me ask this: Do you agree with Dr. Felbab-
Brown's assertion that what the Afghans define as acceptable or 
unacceptable in the corruption realm should become our metric 
in how we deal with corruption or don't deal with corruption?
    Dr. Katzman. It is a way to approach the issue. I happen to 
think that most Afghans, what they complain about most are the 
shakedowns, where the police are demanding--their own 
interaction with first responders, with the Afghan Government, 
where that meets the road.
    I think the Afghans tend to be less concerned with the 
Kabul bank scandal and Karzai's brothers. That tends to get 
interest here in the United States, but I think most Afghans 
probably accept that this is what happens in the region, and it 
is not as much. But when they themselves are forced to take 
from their paltry amount of money to pay a bribe, I think that 
is what has undermined the legitimacy the most.
    Mr. Wittman. Very good.
    Lieutenant General Dubik.
    General Dubik. And could I say, Mr. Chairman, that is 
something that staying engaged can improve. Walking away after 
2014 or diminishing, sort of de facto walking away after 2014, 
won't improve any of that. So staying engaged with the Afghan 
National Security Forces and their ministries in the proper 
partnership way from ministerial to selected units has the 
greatest probability of improving that kind of corrupt 
predatory practices and I think raises the credibility of the 
government, would raise the credibility of the government, at 
least some degree.
    Mr. Wittman. Dr. Felbab-Brown, any additional comments?
    Dr. Felbab-Brown. Yes. I agree with Ken that it is 
particularly problematic when government officials are very 
abusive. So police ask for bribes, often bribes at the level 
that it makes no sense to bring legal products to market 
because nothing is left of profits, so exorbitant tolls, 
exorbitant bribes that really liquidate the productive capacity 
of the population.
    But I would also add that, apart from shakedowns, there is 
an increasing tendency on the part of power brokers, including 
government officials, to engage in land theft, murder, 
extortion at gunpoint, tactics that one associates with mafias. 
And Afghans are extraordinarily concerned and upset about the 
utter lack of prosecution and punishment, the utter impunity 
that government officials are capable of enjoying.
    I would also add to the comments that we promised something 
that we were not able to deliver that, of course, the problems 
with the early promises was that we really have not tried to 
deliver them. We frequently were speaking in very ambitious 
terms about democracy, equality, yet at the same time we were 
embracing some of the most bloody and most problematic power 
brokers. And so Afghans have lived with these contradictions 
about what we raised as their aspirations and, ultimately, the 
very little that we have been able to deliver.
    I have a book on Afghanistan coming out later in the fall, 
and the title of the book is ``Afghan Aspirations and American 
Ambivalence.'' And the choice is precisely because we raised 
their aspirations to perhaps levels they themselves would not 
aspire to, but nonetheless we raised them, but then we 
delivered so little. And, in fact, we kept constantly 
contradicting the promises and proclamations that we have made, 
that Afghans are profoundly disappointed with the political 
system and dispensation they are living with.
    Mr. Wittman. Uh-huh.
    Dr. Katzman. If I can just add, on this issue of what I 
call ``faction leaders''--and Karzai hates the term 
``warlords''--the problem is, these faction leaders have 
constituencies. There are communities in Afghanistan who look 
to these leaders to protect their interests. This is why they 
stay afloat. Karzai has tried to marginalize Isma'il Khan, he 
has tried to marginalize Abdul Rashid Dostam, he has tried to 
marginalize Mohammad Mohaqiq. We have tried; Ambassador 
Khalilzad when he was there. It never works, because they have 
constituencies that are keeping them afloat.
    Until we solve that problem, which I would argue is 
probably not ever going to be solved, these guys are going to 
stay influential, they are going to keep committing the abuses 
and getting away with it.
    Mr. Wittman. Let me ask this, then, in closing. And I am 
assuming in what I have heard from your testimony that you all 
look at the process of our efforts in Afghanistan along a 
continuum. And we know today we have people that say, let's get 
out immediately, let's cut our losses, let's go. You have 
others that say, listen, still pretty challenging times here, 
we have done a lot, we have to continue past 2014 if we hope to 
preserve any hope of any kind of success there, regardless of 
the definition, or that we would preserve the efforts that have 
been put forth there, both in the money that we have spent, the 
lives that have been given there, and the future for 
Afghanistan.
    I just wanted to get you all in a closing comment to let me 
know, where do you think we ought to be on that continuum? Is 
the 2014, should that be shut the door and let's get out? 
Should we continue past 2014? If we do, what do you think the 
nature of that should be past 2014?
    So I just want to get you all, your ideas about that as we 
close.
    General Dubik. Well, I am not in the 2014-equals-index 
boat. My wife is, but I am not, so we have all kind of 
interesting conversations at home.
    But I do believe that if we maintain a sufficiently large 
and sufficiently aggressive military and nonmilitary presence 
up to 2014, we have the conditions to set so that our military 
presence beyond 2014 can be much smaller than it is.
    It should be sufficient, though, to make sure that the 
Afghans' force remains large enough, capable enough, and 
confident enough to take up the slack. The slack will be 
significant. The threat will not have gone away, even if we 
reduce it. And the elements that will give the Afghans the 
confidence and the capability are mostly the fact that we are 
still there. And we don't have to be in large numbers to do 
this, but it has to be greater than zero, and it has to be 
significant from their perspective.
    On the diplomatic side, many of the problems that we see in 
the Government I think have been the result of vacillating 
policies, at least up to 2009. And the consistency of policies 
on the nonmilitary side will also help over time to mitigate 
some of these problems.
    None of the problems, security or nonsecurity, Government 
or economic, are going to be easily solved. They are all going 
to be developmentable over time, emerging, improving slowly. 
And our engagement and our assistance, NATO and U.S., is part 
of the solution. Withdrawal is not part of the solution.
    Dr. Felbab-Brown. I strongly believe that if 2014 is the 
end, what Afghans, most Afghans, fear, a civil war, a localized 
civil war, is the most likely outcome. Obviously, this would be 
terribly detrimental to U.S. national interests.
    I am not sure, and I don't think anyone can be sure at this 
point, that staying beyond 2014 can reverse the trends, but it 
gives a chance. Nonetheless, how we stay beyond 2014, how we 
continue to be engaged is critical. In my view, it means to 
stay engaged militarily, with as much support, combat support 
for the Afghan National Security Forces as we can generate, 
certainly with respect to critical enablers but hopefully 
beyond critical enablers.
    The mission needs to be defined as more broadly stability 
and counterinsurgency than simply NATO counterterrorism. If it 
is defined simply as NATO counterterrorism, the value of our 
presence diminishes rapidly and our leverage diminishes 
rapidly.
    And I also believe that we need to push on governance far 
more determinedly than we have had--selectively, critically. It 
cannot be we ask for everything, but, nonetheless, far more 
determinedly than we have done. I believe it is extremely 
difficult to imagine how stability can be achieved, even the 
improvements on the security situation, without some greater 
legitimacy of the government.
    So I think the excruciating dilemma for U.S. foreign policy 
is that continuing, even wisely continuing, doesn't guarantee 
success, yet abruptly leaving and shutting the door spells 
failure.
    Dr. Katzman. I completely concur with my fellow panelists. 
The more we stay engaged after 2014, the better result we are 
going to achieve. I think a lot of it is, to be honest, 
probably up to the U.S. taxpayers and their elected 
representatives. We are probably going to be looking at, I 
would say, $25 billion a year after 2014, assuming there is 
15,000 to 20,000 U.S. forces, plus the ANSF fund, which is $2 
billion, plus economic aid, somewhere in that. Now, that is a 
lot less than $100 billion a year, but it is still $25 billion 
or so. So those are considerations.
    But, clearly, the more we stay engaged, and not just with 
military training and special forces but with governance 
programs, State Department-led, AID [Agency for International 
Development]-led civil society programs, democracy and 
governance programs, economic development programs, we can 
preserve the progress and not witness a backsliding.
    If we leave entirely, all the guys I mentioned--Dostam, 
Mohaqiq, Isma'il--these guys are all going to become 
exponentially more powerful, because all the Afghans are going 
to look to them to protect them if we leave.
    Mr. Wittman. Sure.
    Dr. Katzman. If we stay engaged, I think the government 
stays together and we continue to work on what we have worked 
on with them.
    Mr. Wittman. Very good.
    Panelists, thank you all so much for joining us. Thanks for 
your patience as we went back over to vote. And I appreciate 
you spending some time with us afterwards to make sure we could 
complete our line of questioning.
    So, again, thank you.
    And this hearing is now adjourned.
    [Whereupon, at 6:15 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             August 2, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 2, 2012

=======================================================================

      
                     Statement of Hon. Rob Wittman

      Chairman, House Subcommittee on Oversight and Investigations

                               Hearing on

           Afghan National Security Forces: Afghan Corruption

           and the Development of an Effective Fighting Force

                             August 2, 2012

    Today the Oversight and Investigations subcommittee 
convenes the fifth and final hearing in our series related to 
the Afghan National Security Forces.
    This afternoon we have before us a panel of experts to 
provide testimony about how corruption in Afghanistan might 
impede the development of that nation's security forces.
    Corruption could prevent army and police units from 
successfully assuming responsibility for securing Afghanistan 
from internal and external threats after 2014. Corruption also 
potentially reduces the operational effectiveness of security 
forces and jeopardizes their legitimacy with the population.
    In order for the United States to achieve its strategic 
goal of denying terrorists safe haven in Afghanistan, it is 
essential that Afghan forces be capable of maintaining security 
and stability after transition is complete in 2014. Our purpose 
today is not to undertake a comprehensive assessment of 
corruption in the region, but instead to narrowly focus on how 
corruption affects the development of an effective Afghan army 
and police.
    Our panel today includes:

        <bullet> LRetired Lieutenant General James M. Dubik, 
        Senior Fellow at the Institute for the Study of War;
        <bullet> LDr. Vanda Felbab-Brown, a Foreign Policy 
        Studies Fellow at the Brookings Institution; and
        <bullet> LDr. Kenneth Katzman, Specialist in Middle 
        Eastern Affairs at the Congressional Research Service.

    Thank you for your participation. We look forward to your 
testimony.

[GRAPHIC] [TIFF OMITTED] T5635.001

[GRAPHIC] [TIFF OMITTED] T5635.002

[GRAPHIC] [TIFF OMITTED] T5635.003

[GRAPHIC] [TIFF OMITTED] T5635.004

[GRAPHIC] [TIFF OMITTED] T5635.005

[GRAPHIC] [TIFF OMITTED] T5635.006

[GRAPHIC] [TIFF OMITTED] T5635.007

[GRAPHIC] [TIFF OMITTED] T5635.008

[GRAPHIC] [TIFF OMITTED] T5635.009

[GRAPHIC] [TIFF OMITTED] T5635.010

[GRAPHIC] [TIFF OMITTED] T5635.011

[GRAPHIC] [TIFF OMITTED] T5635.012

[GRAPHIC] [TIFF OMITTED] T5635.013

[GRAPHIC] [TIFF OMITTED] T5635.014

[GRAPHIC] [TIFF OMITTED] T5635.015

[GRAPHIC] [TIFF OMITTED] T5635.016

[GRAPHIC] [TIFF OMITTED] T5635.017

[GRAPHIC] [TIFF OMITTED] T5635.018

[GRAPHIC] [TIFF OMITTED] T5635.019

[GRAPHIC] [TIFF OMITTED] T5635.020

[GRAPHIC] [TIFF OMITTED] T5635.021

[GRAPHIC] [TIFF OMITTED] T5635.022

[GRAPHIC] [TIFF OMITTED] T5635.023

[GRAPHIC] [TIFF OMITTED] T5635.024

[GRAPHIC] [TIFF OMITTED] T5635.025

[GRAPHIC] [TIFF OMITTED] T5635.026

[GRAPHIC] [TIFF OMITTED] T5635.027

[GRAPHIC] [TIFF OMITTED] T5635.028

[GRAPHIC] [TIFF OMITTED] T5635.029

[GRAPHIC] [TIFF OMITTED] T5635.030

[GRAPHIC] [TIFF OMITTED] T5635.031

[GRAPHIC] [TIFF OMITTED] T5635.032

[GRAPHIC] [TIFF OMITTED] T5635.033

[GRAPHIC] [TIFF OMITTED] T5635.034

[GRAPHIC] [TIFF OMITTED] T5635.035

[GRAPHIC] [TIFF OMITTED] T5635.036

[GRAPHIC] [TIFF OMITTED] T5635.037

[GRAPHIC] [TIFF OMITTED] T5635.038

[GRAPHIC] [TIFF OMITTED] T5635.039

[GRAPHIC] [TIFF OMITTED] T5635.040

[GRAPHIC] [TIFF OMITTED] T5635.041

[GRAPHIC] [TIFF OMITTED] T5635.042

[GRAPHIC] [TIFF OMITTED] T5635.043

[GRAPHIC] [TIFF OMITTED] T5635.044

[GRAPHIC] [TIFF OMITTED] T5635.045

[GRAPHIC] [TIFF OMITTED] T5635.046

[GRAPHIC] [TIFF OMITTED] T5635.047

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
